E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE.

Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-968

CHIKE UZUEGBUNAM AND JOSEPH BRADFORD,
Petitioners,
v.

STANLEY C. PRECZEWSKI, JANN L. JOSEPH,
LOIS C. RICHARDSON, JIM B. FATZINGER,
TOMAS JIMINEZ, AILEEN C. DOWELL, GENE
RUFFIN, CATHERINE JANNICK DOWNEY,
TERRANCE SCHNEIDER, COREY HUGHES,
REBECCA A. LAWLER, AND SHENNA PERRY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
FOUNDATION FOR INDIVIDUAL RIGHTS IN EDUCATION AND CATO INSTITUTE IN
SUPPORT OF PETITIONERS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 6019 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of September, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
A RENEE J. GOSS Konto. 9. Ae Qudaw &. Chk,
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

40085
